No. 21-

 

IN THE

Supreme Court of the United States

My Lan LABORATORIES LTD.,
Petitioner,
Vv.
JANSSEN PHARMACEUTICA, N.V.,
and

ANDREW HIRSHFELD, Performing the Functions and
Duties of the Under Secretary of Commerce for Intel-
lectual Property and Director of the United States
Patent and Trademark Office,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

8,991 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 9, 2021.

 

Colin Casey Hogan
Wilson-Epes Printihg Co., Inc.
